HHS/OIG, Audit -"Review of Outpatient Cardiac Rehabilitation Services - St. Charles Mercy Hospital, Oregon, Ohio,"(A-05-03-00070)
Department of Health and Human Services
Office of Inspector General -- AUDIT
"Review of Outpatient Cardiac Rehabilitation Services - St. Charles Mercy Hospital, Oregon, Ohio," (A-05-03-00070)
October 20, 2003
Complete
Text of Report is available in PDF format (321 KB). Copies can also be obtained by contacting the Office of Public
Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
This review was part of a nationwide analysis of Medicare reimbursement for outpatient cardiac rehabilitation services.  The
objective of the review was to determine whether Medicare properly reimbursed St. Charles Mercy Hospital (Hospital) for
outpatient cardiac rehabilitation services.  Our review disclosed that the Hospital did not designate a physician
to directly supervise the services provided by its cardiac rehabilitation program.  In addition we could not identify
the physician professional services to which the cardiac rehabilitation services were provided “incident to.”  Also,
the Hospital claimed and received Medicare reimbursement for outpatient cardiac rehabilitation services which did not meet
Medicare coverage requirements, which may not have been supported by medical record documentation, or which were otherwise
unallowable.  We recommended that the Hospital: (1) work with its fiscal intermediary, AdminaStar, to ensure that
the Hospital’s outpatient cardiac rehabilitation program is being conducted in accordance with the Medicare coverage
requirements for direct physician supervision and for services provided “incident to” a physician’s professional
service; (2) work with AdminaStar to establish the amount of repayment liability for services provided to beneficiaries
where medical documentation may not have supported Medicare covered diagnoses and for services not otherwise allowable;
(3) implement controls to ensure that medical record documentation is maintained to support Medicare outpatient cardiac
rehabilitation services; and (4) implement controls to ensure that only one unit of service is billed to Medicare for each
cardiac rehabilitation session provided.